 

No. 19-

Fn the Supreme Court of the Gnited States

Justin Hawkins,
Petitioner,

v.

Ohio,
Respondent.

On Petition for a Writ of Certiorari
to the Ohio Supreme Court

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Petition for
Certiorari in the above-entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for the
text and 10 point for the footnotes, and that the Petition for Certiorari contains
7,396 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 17, 2020.

Stuart Banner

UCLA School of Law
405 Hilgard Ave.

Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu
Counsel for Petitioner
